               STATEMENT BY



             JOHNNIE E. FRAZIER

             INSPECTOR GENERAL

        U.S. DEPARTMENT OF COMMERCE



                BEFORE THE

SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    COMMITTEE ON ENERGY AND COMMERCE

          HOUSE OF REPRESENTATIVES



                 MAY 1, 2002




                      1
Mr. Chairman and Members of the Subcommittee, I am pleased to appear before you today to

discuss the Office of Inspector General’s activities to oversee the Department of Commerce’s

Purchase Card Program.



I’d like to share with you some of “the good, the bad, and the ugly” things that we have learned

about the program. First, the good: The overwhelming number of Commerce and other federal

employees use their government purchase cards responsibly. These cardholders follow

appropriate procedures, are careful to avoid making improper purchases, and stay alert to best

practices that can help the program operate efficiently.



As for the bad: The program still has a number of systemic weaknesses and problematic

practices that needlessly leave it open to fraud, waste, and abuse.



And the ugly: Reports in the media and from OIGs and other oversight organizations have

highlighted irresponsible and illegal use of government purchase cards, and as a result have given

the Purchase Card Program a negative image.



For more than 15 years, government employees have relied on purchase cards to expedite their

ability to make small purchases, obtain training, and otherwise streamline unwieldy federal

procurement procedures. As Commerce and other agencies push for greater efficiency in the

acquisitions process, purchase cards will become an ever-more critical procurement option and




                                                 2
their use will inevitably increase. Hence, I believe that our collective efforts to improve the

purchase card program government-wide must be guided by three key principles:



              STOP any and all personal abuses with aggressive oversight and strong

               disciplinary actions.



              CAUTION managers to address systemic weaknesses and problematic practices.



              GO forward at full speed to implement best practices and other proactive efforts

               that will prevent problems and promote efficiencies.




Background: The Purchase Card Program Has Been at Commerce for Over 15 Years



There is a long history of the purchase card program at Commerce. Over 15 years ago, in 1986,

the Commerce Department was selected as one of several agencies to participate in the

government=s pilot purchase card program. The current version of the program dates from 1998,

when the government, through the General Services Administration, awarded contracts to five

nationwide banks to implement and continue the program. These contracts, awarded for five

years, also have five one-year options to renew. Commerce is scheduled to re-compete its

existing contract next year to determine if it will exercise its options or select a new bank.




                                                  3
In fiscal year 2001, the Commerce Department averaged over 6,000 purchase cardholders at any

particular time, and during this twelve-month period, these cardholders completed over 330,000

transactions valued at about $132 million. In short, the Commerce purchase card program

represents substantial purchasing power, and as a result B at least from the OIG perspective B

provides substantial opportunity for misuse and fraud.



So, what then are we doing to monitor the program and what do we see as the actions that are

essential to improving it?




STOP personal abuses with aggressive oversight and strong disciplinary actions



With over 6,000 cardholders in the Commerce Department, we also receive allegations of

purchase card abuse. The allegations, when deemed credible, are handled as criminal

investigations. Here are some examples of several completed investigations:



              An Office of Secretary contract specialist fraudulently used her government

               purchase card to buy approximately $50,000 worth of clothing, jewelry, electronic

               equipment, furniture, airline tickets, sporting event tickets, concert tickets,

               household supplies, and hotel accommodations. These purchase card




                                                  4
    irregularities were first reported by an approving official. After it was referred to

    my office, we advised the Department to immediately cancel the card, and thus,

    minimized the potential loss to the government while we conducted our

    investigation. This employee resigned during the investigation and was

    subsequently convicted of theft of government property, sentenced to six months

    in prison, followed by two months of home detention and three years’ probation,

    as well as ordered to make full restitution.



   In another case, a former secretary with the National Weather Service regional

    office in Alaska was convicted of theft of government property as a result of our

    investigation. In this case, our investigators were contacted by the supervising

    meteorologist after the unauthorized purchases were finally noticed. Since the

    approving official was the cardholder’s direct supervisor and he considered the

    cardholder to be a trusted employee, this misuse was able to continue for

    approximately a year because the cardholder intercepted the monthly statements.

    When the cardholder was involved in an auto accident and on extended leave,

    another employee opened the mail and the approving official discovered that the

    fraudulent purchases were taking place. In our criminal investigation of the

    matter, we found that, over a one-year period, the secretary charged about $7,500

    for groceries, books, school supplies, electronics, and bath accessories on her

    government purchase card. She also used the card to spend New Year’s Eve at a




                                      5
    premier hotel in Anchorage. She has been sentenced to five years’ supervised

    probation and ordered to make full restitution to the government.



   Over a four month period, a former NOAA fisheries science center secretary

    used her government purchase card to go on a spending spree for her children,

    friends, and herself. Her 74 fraudulent purchases included clothing, cosmetics,

    gas, nightclub charges, concert tickets, restaurant meals, and Internet services.

    After a reviewing official noted several questionable purchases during a routine

    monthly review of a Citibank report, he spoke with the cardholder who admitted

    that she misused the card and subsequently reported this to us. A Massachusetts

    state court sentenced her to repay the $4,300 theft within one year and to complete

    25 hours of community service or face a sentence of up to two years and a

    $25,000 fine.



   A former National Weather Service automation clerk used a co-worker’s

    government purchase card to buy more than $1000 in personal items, including

    lingerie, clothing, exercise equipment, and toys. As a result of this investigation,

    which was initiated by a referral from the Commerce Bankcard Center, the clerk

    was subsequently convicted of theft of government property. The U.S. District

    Court sentenced her to two years probation, 50 hours of community service, and

    ordered her to make full restitution to the government.




                                      6
              Based on a referral from the Census Bureau, we investigated and subsequently

               obtained a theft conviction for a former administrative assistant’s misuse of her

               government purchase card to buy $800 worth of personal clothing, jewelry, CDs,

               and electronic equipment. She was convicted of theft of government property and

               sentenced to serve six months in a community correction facility, given two years’

               probation, and ordered to make full restitution to the government.



              The final case I will discuss is unusual in that it involved a contract employee

               working for the U.S. Patent and Trademark Office. A reviewing official

               discovered a questionable transaction, contacted the Commerce Bankcard Center,

               and the case was referred to our office. During our criminal investigation we

               learned that a departing USPTO employee surrendered her government purchase

               card to the contract employee/receptionist as part of her agency’s separation

               procedure. The receptionist and a companion immediately used the card to go on

               a shopping spree to purchase $700 of clothing. This individual’s sentence

               included full restitution to the government, a year’s probation, a fine of $1,400,

               and 100 hours of community service



By now, it should be clear that not one of the aforementioned individuals is still employed at the

Commerce Department and that my office has an established history of fully investigating




                                                 7
purchase card abusers, regardless of the amount involved. And it is equally important to point out

that the Justice Department and state law enforcement agencies have generally been active

partners in our cases, even though some of the monetary loses were relatively small, because they

believe, like I believe, that ensuring the integrity of federal operations, and the trustworthiness of

federal employees, is absolutely essential for maintaining the public=s confidence in the

government.




CAUTION managers to address systemic weaknesses and problematic practices



Beginning in 1995, my office began conducting audits and other reviews of purchase card use

and related activities within various components of the Department. As a result, we have issued

eleven reports that dealt specifically with the purchase card program at various bureaus. In

addition, we have covered this topic in a number of our inspection reports as part of an overall

review of administrative services at the offices inspected. For example, our audits included

headquarters operations of NOAA, MBDA, NTIA, USPTO, and the Office of the Secretary, as

well as certain laboratories, science centers, and regional offices. In addition, some of our

reviews looked at purchase card use at our overseas posts. The primary purpose of our reviews

was to determine if purchase card use was in compliance with the Federal Acquisition

Regulation, the Commerce Acquisition Manual, and the Department=s Personal Property

Management Manual.




                                                  8
During these reviews, we examined a sample of purchase card transactions; reviewed applicable

regulations, policies, procedures, management reports, and other records; interviewed

cardholders, approving officials, and other management officials; and assessed administrative

and accounting controls, including controls over the physical security and authorized use of the

purchase card.



Frequently we found from these proactive reviews that systemic weaknesses and problematic

practices needlessly leave the purchase card program vulnerable to waste, fraud, and abuse.

More specifically, we found that:



                Bankcards were sometimes used by unauthorized employees. For example,

                 during a review of a NIST laboratory, we found that several cardholders allowed

                 other employees to use their assigned purchase cards. When questioned about this

                 inappropriate practice, the most frequent excuse given by the cardholders was that

                 it allowed them “to save time.” Since purchase cards may only be used for

                 purchases that are authorized by law or regulation, assigned cardholders are

                 responsible for complying with this safeguard aimed at ensuring such things as the

                 availability of funds and compliance with all internal controls.




                                                   9
   Bankcards were often not properly secured. In almost all of our reviews, we

    found that many cardholders kept cards in wallets, handbags, or unlocked desks.

    According to departmental regulations, cardholders are required to keep their

    cards in a secure place, such as a locked drawer or cabinet. Failure to do so

    increases the risk that the card could be stolen.



   Split purchases were made. Some cardholders improperly divided what should

    have been a single purchase into separate purchases on multiple occasions to

    avoid purchase card limitations. At a NIST laboratory in Boulder, Colorado, for

    example, seven different cardholders, over a 10-month period, purchased a

    security system for a total of $83,000. This system consisted of an entrance/exit

    keypad and a photo identification component estimated to cost $36,000 from a

    single vendor. As a result of using the split purchases, there is no assurance that

    the government received a competitive price or even a reasonable price.



   Purchase order logs not maintained. Many cardholders were not maintaining

    the required purchase order log, or at least not maintaining it in the proper detail.

    The log is designed to provide basic financial, administrative, and shipping data

    for each purchase card transaction. Without recording all transactions in the log,

    cardholders cannot adequately document, control, and reconcile purchase activity

    with the purchase card statement. In addition, the approving official cannot




                                      10
    adequately determine whether the transactions are appropriate and properly

    categorized, or reconcile purchase activity with the monthly summary report

    received from the bankcard contractor. For example, a review of a US&FCS

    office in Brazil revealed that record keeping was so deficient that purchases could

    not be easily identified and confirmed.



   Required purchase card training was not completed and documented. All

    cardholders are required to complete a minimum level of training to understand

    basic purchasing concepts and the proper use of the card. In almost all of our

    reviews, we found a need to improve initial and refresher training provided to

    cardholders, as well as some approving officials. In some instances, there was no

    documentation that required training was completed, cardholders could not

    remember receiving training, or cardholders were not familiar with the Commerce

    Acquisition Manual.



   Competitive procurement procedures for purchases over $2,500 were not

    always used or documented. In some cases, cardholders made purchases over

    $2,500 without obtaining and/or documenting required competitive quotes or

    developing a sole source justification. When this happens, there is no assurance

    that the government obtained the most competitive price or even a reasonable

    price. As an example, a NOAA Northwest Fisheries Science Center cardholder




                                     11
               purchased an environmental monitor for $7,000 without knowing if the

               government received the best price for the item.



We have found that these proactive reviews are especially useful at identifying systemic

weaknesses in the internal controls designed to safeguard the program. These reviews are

continuing, including our ongoing comprehensive Department-wide audit of the purchase card

program.




GO forward at full speed to implement best practices and other proactive efforts that will

prevent problems and promote efficiencies



Of course it needs to be said again that not everything is Agloom and doom@ related to the

purchase card program. In fact, we believe that the vast majority of the Department=s 6000

cardholders are attempting to do a quality job. However, we also believe that we must constantly

work with Commerce officials, managers, and others to look for ways to improve the program

and do our best to implement best practices to resolve problems, prevent and detect fraud, and

encourage efficiencies. I am pleased to mention a number of proactive efforts that deserve

special emphasis:




                                                12
   Properly train and support the approving officials. After all is said and done --

    that is, after our recommendations have been addressed, after management has

    improved internal controls, after the software has been modified to check for

    certain anomalies -- we believe, based on our past experience, that one of the most

    essential elements for protecting the program from abuse is a diligent,

    knowledgeable approving official. The approving official is responsible for

    monitoring cardholder’s compliance with established regulations and procedures,

    reviewing monthly purchase card statements, and ensuring the validity and

    allowability of transactions. These are also the people who most often bring

    allegations of abuse to our attention. Thus, we believe that the role of the properly

    trained approving official is perhaps the main line of defense for guarding against

    fraud, waste, and abuse in the purchase card program.



   Publicize common problems and their solutions. It is important to share with

    cardholders and program managers information about what does and does not

    work. Accordingly, we were pleased to learn that the Controller of NOAA’s

    Finance Office prepared a “slide show” for his office’s website that -- with a dash

    of humor -- highlighted a number of findings and recommendations from our

    purchase card reviews. His basic admonition to employees is “. . . if it’s

    happening there, it may be happening in your area as well.” I believe that this slide




                                     13
    show, entitled Internal Controls Over Bankcard Programs Need Improvement, is

    still posted on the agency’s website and sends a powerful reminder to government

    cardholders.



   Look for problems before the problems find you. We can all learn from the

    experiences of others in similar situations. This was certainly the thinking of one

    senior Commerce official. After my office had conducted a number of reviews at

    National Weather Service offices, the NWS Administrator shared some of the

    results with more than 100 field offices and advised his managers to address any

    potentially similar findings at other sites BEFORE additional reviews took place.



   Maintain sufficient and constant oversight. We cannot over emphasize the

    importance of managers’ taking prompt, appropriate corrective action when

    problems arise. For example, the Commerce Bankcard Center has strengthened

    procedures and controls related to cancellation of purchase cards for terminated

    employees. The center requested that the various Commerce finance and payroll

    offices match Social Security Numbers of employees who have left the

    Department with the Social Security Numbers of “current” purchase cardholders.

    This procedure provides additional assurance that cards of terminated employees

    can no longer be used. While this procedure is not yet in effect with all Commerce

    bureaus, it is working at the bureaus that have implemented the Department’s new




                                     14
    financial management system, and these bureaus account for 86% of the

    Commerce purchase cards.



   Senior managers need to ensure that their own houses are in order. Let me

    use my own office as the example here, since I do not consider that we are

    immune from scrutiny. In order to emphasize to the Department, and to my staff,

    just how seriously I regard this issue, in October 2001, I initiated a review of

    purchase cards used within the Office of Inspector General. At the time of the

    review, my office had 10 cardholders; this number has subsequently been reduced

    to seven. Let me note that our interval review found no evidence of fraud or

    misuse of funds B and naturally I=m very thankful for those results. But the review

    did point out to me that, as federal offices try to take advantage of the greater

    flexibility offered by the purchase card program, supervisors and approving

    officials need to stringently adhere to the program=s regulations and guidelines. In

    our case, for example, some of my cardholders had not kept their training up to

    date, and my office initiated steps immediately to correct that situation. So, even if

    an agency is using the purchase card program efficiently and effectively, I believe

    that agency officials must still maintain diligence to ensure that administrative

    indifference does not eventually open the door for problems or abuses.




                                      15
The IG Community is working to strengthen oversight of the government’s purchase card

programs



The President’s Council on Integrity and Efficiency (PCIE) is primarily composed of the

presidentially appointed IGs. Two of the PCIE’s primary objectives are to (1) address efficiency,

economy, and effectiveness issues that transcend individual government agencies, and (2)

increase the professionalism and effectiveness of OIG personnel throughout the government.



As evidenced by the presence of my distinguished IG colleagues here today from the Department

of Health and Human Services and the Energy Department, and my awareness that over the past

year many of the other Inspectors General have also been involved in purchase card program

reviews, it is clear that this issue transcends our individual agencies and is a true cross-cutting

issue that has the attention of most, if not all, Inspectors General.



With this in mind, recently the PCIE’s Inspection and Evaluation Committee, which I chair,

began to explore ways that the IG community members could learn from each other’s

experiences—again, the good, the bad and the ugly—in ways that would allow us to improve the

purchase card programs government-wide. Many of us have individually developed audit

programs, inspection guides, or other review documents to help guide our staffs through reviews

of purchase card activities. As we began to discuss and share our approaches and review guides,




                                                  16
the Committee thought that it would be helpful to issue a reference guide that could be used by

other Inspectors General in conjunction with their own evaluation tools and techniques. This

reference guide, A Practical Guide to Reviewing Government Purchase Card Programs, will be

issued in the next few weeks.



The guide was originally prepared for the I&E Committee by the Department of Education’s IG,

Lorraine Lewis, and her staff. It provides common sense advice on conducting the purchase card

reviews and includes a number of practical features to enhance the review process, such as

questionnaires, templates, and sample reports. It is designed to assist the IG Community in its

reviews of purchase card activities. My hope is that the guide will be used in combination with

the other valuable assessment tools developed by the IGs to further strengthen our oversight of

government purchase card programs. Mr. Chairman, I believe that this guide reflects a continuing

commitment of IGs from all agencies to work together in promoting efficiency and effectiveness

throughout the government.



                                      - - - - - - - - - - -



This concludes my testimony. Mr. Chairman, I will be happy to answer any questions that you or

other Members of the Subcommittee may have.




                                                17
Government Purchase Cards: Traffic Ahead!

                 ØSTOP any and all “personal” abuses
                 with aggressive oversight and strong
                 disciplinary actions.

                 ØCAUTION managers on the
                 importance of addressing systemic
                 weaknesses.

                 ØGO full speed ahead with efforts to
                 prevent problems, promote efficiencies,
                 and implement best practices.
